CREDIT CARD AGREEMENT
AND DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-INLENDING DISCLOSURE STATEMENTS, WORLD MASTERCARD, MASTERCARD PLATINUM,
MASTERCARD PLATINUM REWARDS AND MASTERCARD PLATINUM SECURED AGREEMENTS, AND
ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR WORLD MASTERCARD, MASTERCARD
PLATINUM, MASTERCARD PLATINUM REWARDS AND MASTERCARD PLATINUM SECURED CREDIT
CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS
AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.
DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean VANTAGE CREDIT UNION. The words "You" and "Your" mean each
person who accepts this Agreement or uses the World Mastercard, Mastercard Platinum, Mastercard Platinum Rewards or Mastercard Platinum Secured Credit
Card(s). The words "Card" and "Credit Card" mean any World Mastercard, Mastercard Platinum, Mastercard Platinum Rewards or Mastercard Platinum Secured
Credit Card issued to You by Us and any duplicates or renewals. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. Your Account may be accessible through a variety
of means which could include advance request forms, vouchers, checks, charge slips, Credit Cards and the like. Regardless of the access means, You promise to
pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your
Account, including Finance Charges and other fees or charges described herein.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but not limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
SECURITY. You acknowledge that You own any shares and/or collateral pledged as security and that there are no other liens against them other than Ours. You
agree to perform all acts which are necessary to make Our security interest in the shares and/or collateral being pledged enforceable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as security under this Agreement or for any other loan You may have with
Us will secure all amounts You owe Us now and in the future if that status is reflected in the “Truth-In-Lending Disclosure” in any particular Agreement evidencing
such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your shares or deposits with Us (except for IRA and Keogh accounts) and any
dividends/interest due or to become due to You from Us to the extent You owe on any unpaid Credit Card balance and/or Overdraft Protection balance
created through the use of Your Debit card or ATM card.
MASTERCARD PLATINUM SECURED CREDIT CARD RESTRICTIONS. In order to apply for and maintain a Mastercard Platinum Secured Card, You agree to
grant Us a specific security interest in Your Mastercard Secured Savings Account with Us. The amount that is pledged will equal Your Credit Limit, but in no event
will be less than $500.00. In order to retain Card privileges, the funds pledged as security will remain in Your Mastercard Secured Savings Account unless You
cancel Your Mastercard Platinum Secured Card and request the redemption of any funds given as security. You may do so at any time by returning any Mastercard
Platinum Secured Cards issued to You and completing a Mastercard Secured Card Voluntary Closure form available from the Credit Union. Any funds securing Your
Mastercard Platinum Secured Card (less any amounts You owe) will be transferred to Your Regular Savings Account 15 days after We receive Your request. If Your
Mastercard Platinum Secured Card is closed for cause due to an overlimit or delinquent status, or is voluntarily closed while in an overlimit or delinquent status, any
funds securing Your Mastercard Platinum Secured Card will immediately be applied to any balance owing. You agree to immediately pay in full any amount then
outstanding on Your Account.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for which You are approved. Unless You are in default, any Credit Limits established for
You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if Your unpaid balance is less than Your Credit Limit, You will have no credit available
during any time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand that any such Account access device(s) will be mailed only to the primary Borrower
at the address We have on file for You. We may refuse to follow any instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment will not delay Your next scheduled payment. All payments to Us must be in lawful
money of the United States. We may apply each payment to whichever Credit Card We wish. Except as required by law, the order in which We may apply payments
is at Our discretion.
Any unpaid portion of the Finance Charge will be paid by subsequent payments and will not be added to Your principal balance. You understand that any delay in
the repayment of Your unpaid balance will increase Your periodic Finance Charges and any acceleration in the repayment of Your unpaid balance will decrease
Your periodic Finance Charges.
World Mastercard, Mastercard Platinum, Mastercard Platinum Rewards and Mastercard Platinum Secured Minimum Payments will be an amount equal to 3.00% of
Your new unpaid World Mastercard, Mastercard Platinum, Mastercard Platinum Rewards or Mastercard Platinum Secured Account balance at the end of each billing
cycle, subject to the lesser of $26.00 or Your balance, plus any portion of the Minimum Payments shown on prior statement(s) which remains unpaid, plus any
amount that exceeds any approved Credit Limit.
You may, by separate agreement, authorize Us to charge an amount equal to: (a) the Minimum Periodic Payment shown on Your Periodic Billing Statement; (b) a
set amount not less than 3.00% of Your approved Credit Limit; or (c) the total New Balance shown on Your Periodic Billing Statement. If You authorize Us to do this,
the amount designated in such agreement will be deducted automatically from Your checking or Regular Savings account with Us or Your checking account at
another institution.
Copyright Oak Tree Business Systems, Inc., 2010-2020. All Rights Reserved.

Page 1 of 4

OTBS 016CC FRB_ Web VANT (7/20)
Rev. (6/17)

LATE CHARGE. If Your payment is more than 15 days late, You will be charged 5.00% of the payment due, subject to a maximum of $25.00 and a minimum of
$10.00 (whenever the payment due is greater than $25.00).
OTHER FEES AND CHARGES. You will be charged the following fees associated with the use of Your Card: (a) the lesser of $25.00 or the amount of the minimum
payment due for each check (or other negotiable instrument used for payment) that is returned unpaid; (b) $10.00 for each copy of a receipt You request (refunded
if the basis for the request is a dispute and it is resolved in Your favor); (c) $10.00 for each replacement Card You request; (d) and $10.00 for each duplicate
statement You request.
FINANCE CHARGES. In the case of any transactions under Your World Mastercard, Mastercard Platinum, Mastercard Platinum Rewards or Mastercard Platinum
Secured Credit Card(s), the balances subject to the periodic Finance Charge are the average daily transactions balances outstanding during the month (including
new transactions). To get the average daily balance, We take the beginning balance each day, add any new purchases, balance transfers, cash advances, insurance
premiums, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance. Then, We add up
all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying
the average daily balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases of goods and services by paying the full amount of the entire balance owed each month within 25 days of Your
statement closing date. Otherwise, the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a
Finance Charge. Cash advances and balance transfers are always subject to a Finance Charge from the date they are posted to Your Account.
For the current Margin, Index, monthly periodic rate (and the corresponding Annual Percentage Rate) for Your Account, refer to the separate page titled
“Additional Disclosure – Federal Truth-In- Lending Act” which has been provided in conjunction with Your Credit Card.
VARIABLE RATE. All advances are subject to a Variable Rate which is based on the highest Prime Rate as published in the Money Rates section of The Wall Street
Journal in effect on the 15th calendar day that immediately precedes the 1st day of each calendar quarter ("Index") plus Our Margin. The Index plus the Margin
equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the 1st day of the billing cycle during the months of January, April, July
and October of each year. Increases or decreases in the Interest Rate will result in like increases or decreases in the Finance Charge and will affect the number of
Your regularly scheduled payments. We may choose not to apply an increased rate resulting from an increase in the Index and if We do, You agree that such act
will not constitute a reduction in Your Margin. You further agree that in such an event We would not lose Our right to apply any subsequent increase, whether or not
occasioned by any previously unapplied increase.
PENALTY RATE. If Your Account is more than 60 days past due, subject to applicable law, the Margin applicable to Your entire balance of transactions existing at
that time and in the future will be increased to 24.99%. An increase in the Margin will result in an increase in the Monthly Periodic Rate (corresponding to an increase
in the Annual Percentage Rate). For detailed rate information concerning the manner in which the penalty rate may be applied to Your Account, refer to the separate
page titled "Additional Disclosure - Federal Truth-In-Lending Act" which has been provided in conjunction with Your Credit Card.
During the three month period following such an increase, if We receive the first three consecutive required minimum periodic payments when due, the rate applicable
to the balance of transactions that occurred prior to such increase will be returned to the standard variable periodic rate that would have otherwise been in effect.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing all transactions on Your Account including amounts paid and borrowed since
Your last statement. We will mail or deliver a statement each month in which there is a debit or credit balance or when a Finance Charge is imposed. We need not
send You a statement if We feel Your Account is uncollectible or if We have started collection proceedings against You because You defaulted. Each statement is
deemed to be a correct statement of account unless You establish a billing error pursuant to the Federal Truth-In-Lending Act.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability to repay Your indebtedness hereunder is or soon
will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain payment on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and reasonable attorneys’ fees incurred in the course of collecting any amounts
owed under this Agreement or in the recovery of any collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our rights under this Agreement. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly in writing if You move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect to do so, You will be given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional Disclosure — Federal Truth-In-Lending Act," which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement. By signing the application; or by using Your Account or any Account access
device; or by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may, from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with applicable laws and regulations. You further agree that We may give information about
Copyright Oak Tree Business Systems, Inc., 2010-2020. All Rights Reserved.

Page 2 of 4

OTBS 016CC FRB_ Web VANT (7/20)
Rev. (6/17)

the status and payment history of Your Account to consumer credit reporting agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular Credit Card of Your Account, at any time, whether or not You are in default. You will,
in any case, remain liable to pay any unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the State of Missouri except to the extent that such laws are inconsistent with
controlling federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue You a Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed to anyone. You may use Your PIN to access Your A ccount and all sums advanced
will be added to Your Account balance. In the event a use of Your PIN constitutes an Electronic Fund Transfer, the terms and conditions of Your Electronic Fund
Transfer Agreement may also affect Your rights. Your use of the PIN is Your authorization to Us to withdraw funds from Your Account or charge Your Card to
cover such transactions.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card. You will not be liable for the unauthorized use that occurs after You notify Us of
the loss, theft, or possible unauthorized use by calling Us at the telephone number shown in this Agreement or by writing to Us at the address shown in this
Agreement. In any case, Your liability will not exceed $50.00.
REFUSAL TO HONOR CARDS. We are not liable for the refusal or inability of merchants, financial institutions and others to accept the Cards, or electronic terminals
to honor the Cards or complete a Card withdrawal, or for their retention of the Cards.
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the exchange rate between the transaction currency and the billing currency (U.S.
dollars) will be: (a) a rate selected by Mastercard from the range of rates available in wholesale currency markets for the applicable central processing date, which
rate may vary from the rate Mastercard itself receives; or (b) the government-mandated rate in effect for the applicable central processing date. In each instance,
You will be charged 1.00% calculated on the final settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic terminal or financial institution at which transactions were made, but sales,
cash advances, credit or other slips cannot be returned with the statement.
LOST CARDS. To report lost or stolen Credit Cards or PINs, or any combination thereof, You will immediately call the following numbers: (314) 298-0055 or (800)
522-6009 during regular business hours. After business hours, for Mastercard Platinum, Mastercard Platinum Rewards or Mastercard Platinum Secured Credit Cards
call (800) 449-7728 and for World Mastercard Credit Cards call (866) 820-2908.
CREDITS. If a merchant who honors Your Card gives You credit for returns or adjustments, they will do so by sending Us a slip which will be posted to Your Account.
If Your credits and payments exceed what You owe Us, We will hold and apply this credit against future purchases and cash advances, or if it is $1.00 or more
refund it on Your written request or automatically deposit it to Your Regular Savings account after six months.

ORAL AGREEMENTS. Oral agreements or commitments to loan money, extend credit or to forbear from enforcing repayment
of a debt including promises to extend or renew such debt are not enforceable. To protect You and Us from misunderstanding
or disappointment, any agreements We reach covering such matters are contained in this writing, which is the complete and
exclusive statement of the agreement between Us, except as We may later agree in writing to modify it.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in this Agreement. In Your letter, give Us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If You think there is an error on Your bill, describe what You believe is wrong and why You believe it is a mistake.
You must contact Us:
• Within 60 days after the error appeared on Your statement.
• At least three business days before an automated payment is scheduled, if You want to stop payment on the amount You think is wrong.
You must notify Us of any potential errors in writing. You may call Us, but if You do We are not required to investigate any potential errors and You may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received Your letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or explain to You why We believe the bill is correct.
While We investigate whether or not there has been an error:
Copyright Oak Tree Business Systems, Inc., 2010-2020. All Rights Reserved.

Page 3 of 4

OTBS 016CC FRB_ Web VANT (7/20)
Rev. (6/17)

•
•
•
•

We cannot try to collect the amount in question, or report You as delinquent on that amount.
The charge in question may remain on Your statement, and We may continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
• If We made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If We do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send You a statement of
the amount You owe and the date payment is due. We may then report You as delinquent if You do not pay the amount We think You owe.
If You receive Our explanation but still believe Your bill is wrong, You must write to Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill. We must tell You the name of anyone to whom We reported You as delinquent,
and We must let those organizations know when the matter has been settled between Us. If We do not follow all of the rules above, You do not have to pay the first
$50.00 of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the purchase. To use this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of Your current mailing address, and the purchase price must have been more
than $50.00. (Note: Neither of these are necessary if Your purchase was based on an advertisement We mailed to You, or if W e own the company that sold
You the goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase, contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed above. After We finish Our investigation, We will tell You Our decision. At that point,
if We think You owe an amount and You do not pay, We may report You as delinquent.

Copyright Oak Tree Business Systems, Inc., 2010-2020. All Rights Reserved.

Page 4 of 4

OTBS 016CC FRB_ Web VANT (7/20)
Rev. (6/17)

PRICING INFORMATION ADDENDUM –
CREDIT CARD AGREEMENT
AND DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR WORLD
MASTERCARD, MASTERCARD PLATINUM, MASTERCARD PLATINUM REWARDS AND MASTERCARD
PLATINUM SECURED CREDIT CARDS. PLEASE BE SURE TO READ THIS ADDENDUM CAREFULLY AND
NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage
Rate (APR) For
Purchases, Balance
Transfers and Cash
Advances

10.49% - 17.49%

World Mastercard:
depending on Your creditworthiness.
These APRs will vary with the market based on the Prime Rate.

8.24% - 15.24%

Mastercard Platinum:
depending on Your creditworthiness.
These APRs will vary with the market based on the Prime Rate.

9.99% - 16.99%

Mastercard Platinum Rewards:
depending on Your creditworthiness.
These APRs will vary with the market based on the Prime Rate.

6.25% - 8.25%

Mastercard Platinum Secured:
depending on Your creditworthiness.
These APRs will vary with the market based on the Prime Rate.
Penalty APR And When
it Applies

28.24%
This APR will vary with the market based on the Prime Rate.
This APR may be applied if:
1) You make a late payment.
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason, the
Penalty APR applied to transactions that occur after the increase may be applied indefinitely.
For transactions that occurred prior to the effective date of the increase, the increase will apply
indefinitely unless three consecutive payments are received on or before the due date during
the three-month period following such increase.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each month
within 25 days from Your statement closing date. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Fees
Transaction Fees


Foreign Transaction

1.00% of each foreign currency transaction in U.S. Dollars.
1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees



Returned Payment
Late Payment

Up to $25.00
For payments over $25.00, $10.00-$25.00 subject to Your payment amount.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
FINANCE CHARGES. In the case of any transactions under Your World Mastercard, Mastercard Platinum, Mastercard Platinum Rewards or Mastercard Platinum
Secured Credit Card(s), the balances subject to the periodic Finance Charge are the average daily transactions balances outstanding during the month (including
new transactions). To get the average daily balance, We take the beginning balance each day, add any new purchases, balance transfers, cash advances, insurance
premiums, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance. Then, We add up
all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed by multiplying
the average daily balance subject to a Finance Charge by the Monthly Periodic Rate.
Copyright Oak Tree Business Systems, Inc., 2010-2020. All Rights Reserved.

Page 1 of 2

OTBS 016ACC FRB_ Web VANT (7/20)
Rev. (3/20)

You can avoid Finance Charges on purchases of goods and services by paying the full amount of the entire balance owed each month within 25 days of Your
statement closing date. Otherwise, the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a
Finance Charge. Cash advances and balance transfers are always subject to a Finance Charge from the date they are posted to Your Account.
For World Mastercard, all transactions are subject to the Monthly Periodic Rate that will apply to Your unpaid World Mastercard balance will be 0.8742% - 1.4575%
(corresponding ANNUAL PERCENTAGE RATE 10.49% - 17.49%), based on Your creditworthiness at the time You established Your Account.
For Mastercard Platinum, all transactions are subject to the Monthly Periodic Rate that will apply to Your unpaid Mastercard Platinum balance will be 0.6867% 1.2700% (corresponding ANNUAL PERCENTAGE RATE 8.24% - 15.24%), based on Your creditworthiness at the time You established Your Account.
For Mastercard Platinum Rewards, all transactions are subject to the Monthly Periodic Rate that will apply to Your unpaid Mastercard Platinum Rewards balance will be
0.8325% - 1.4158% (corresponding ANNUAL PERCENTAGE RATE 9.99% - 16.99%), based on Your creditworthiness at the time You established Your Account.
The Monthly Periodic Rate that will apply to Your unpaid Mastercard Platinum Secured balance will be 0.5208% or 0.6875% (corresponding ANNUAL PERCENTAGE
RATE 6.25% - 8.25%), based on Your creditworthiness at the time You established Your Account.
For World Mastercard, the Margin will be 7.24% - 14.24%, based on Your creditworthiness at the time You established Your Account. For Mastercard Platinum, the
Margin will be 4.99% - 11.99%, based on Your creditworthiness at the time You established Your Account. For Mastercard Platinum Rewards, the Margin will be
6.74% - 13.74%, based on Your creditworthiness at the time You established Your Account. For Mastercard Platinum Secured, the Margin will be 3.00% - 5.00%,
depending on Your creditworthiness.

Copyright Oak Tree Business Systems, Inc., 2010-2020. All Rights Reserved.

Page 2 of 2

OTBS 016ACC FRB_ Web VANT (7/20)
Rev. (3/20)

